 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Medicaid Recovery of Pharmacy Payments
       from Liable Third Parties




                        AUGUST 2001
                       OEI-03-00-00030
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                              HEADQUARTERS

Isabelle Buonocore, Project Leader                  Linda Frisch, Program Specialist

Nancy J. Molyneaux, Program Analyst

Tanaz Dutia, Program Analyst





 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/oig/oei
                      EXECUTIVE SUMMARY


PURPOSE

       This report (1) quantifies the Medicaid dollars at risk of being lost when Medicaid pays
       pharmacy claims for beneficiaries who have other insurance, and (2) describes States’
       experiences with third-party payment of claims.



BACKGROUND

       Millions of Medicaid beneficiaries have other pharmacy coverage through private health
       plans, employers, non-custodial parents, State programs such as workers’ compensation,
       or Federal programs such as Medicare. Because Medicaid is usually considered the
       payer of last resort, other insurance sources may be liable for claims providers send to
       Medicaid. In this report, other insurance sources are referred to as “third parties.” Since
       many third parties contract with pharmacy benefit management companies to provide a
       host of services including pharmacy-claims processing, we also use the term third parties
       for these companies.

       When claims have a liable third party, State Medicaid agencies either use a
       cost-avoidance system in which the claim is returned to the pharmacy to bill the third
       party, or they “pay and chase,” i.e., pay the claim and try to recover the payment from the
       third party. States are mandated to pay and chase claims under certain circumstances, but
       in general, payment for claims with third-party liability must be avoided unless the State
       has a Federal cost-avoidance waiver. The Centers for Medicare and Medicaid Services
       (CMS) may grant a cost-avoidance waiver for pharmacy claims if the State demonstrates
       that paying and chasing is cost effective.


FINDINGS

Thirty-two States are at risk of losing over 80 percent ($367 million) of the
Medicaid pharmacy payments they tried to recover from third parties through the
pay-and-chase approach

       Thirty-two States identified $440 million in potential recoveries, of which they recovered
       $73 million (17 percent). The remaining 18 States reported they could not identify the
       amount they paid and chased.




 Medicaid Recovery of Pharmacy Payments         i                                     OEI-03-00-00030
However, the cost-avoidance approach prevented $185 million from being at risk
in 17 States

        States that use cost avoidance say it is successful once a system is in place. States that do
        not use cost avoidance have concerns about it burdening pharmacies and beneficiaries.

Almost three-quarters of States report third parties refuse to process or pay
Medicaid pharmacy claims

        States said when they try to recover payments they are faced with the following
        problems: denials due to incompatible claim formats, unreasonable filing time limits,
        unprocessed claims with no explanation, vague denials, and the inability to identify the
        liable payer or claims processing entity.

More States had problems with pharmacy benefit management companies than
with all other types of third parties combined

        Thirty-two States experienced problems with pharmacy benefit management companies.
        In addition to having all the same problems with these companies as with other types of
        third parties, 14 States said pharmacy benefit management companies will not process
        Medicaid claims because their clients have not authorized them to do so.

While States have difficulty recovering payments, methods such as sharing
information with third parties, using effective billing practices, and taking legal
action have been successful for some States

State recommendations for solving recovery problems include universal claim
formats, eligibility data matches, and new rules for pharmacy benefit
management companies and insurers


RECOMMENDATIONS

To reduce the dollars at risk of being lost, we offer the following
recommendations for CMS:

        Waivers. Review States’ cost-avoidance waivers for pharmacy claims to determine if
        they are meeting the cost-effectiveness criterion. Our findings indicate that, overall, pay
        and chase is not a cost-effective policy. The CMS should also review State policies to
        determine if some States are paying and chasing pharmacy claims without a waiver.

        Best Practices. Continue working together with States to identify, develop, and
        disseminate the most successful methods in both avoiding and recovering Medicaid
        pharmacy payments that are the responsibility of liable third parties.



  Medicaid Recovery of Pharmacy Payments          ii                                     OEI-03-00-00030
       Tracking. Require States to track the dollar amounts they pay and chase and the
       amounts they recover on pharmacy claims if they have cost-avoidance waivers. This
       information is necessary to determine whether a State’s paying and chasing is cost
       effective. Furthermore, unless States know how much money third parties owe, they
       cannot use their collection resources to the best advantage.

       Claim format. Clarify for States whether claim standardization requirements under the
       Health Insurance Portability and Accountability Act will be applied to pharmacy services
       in a third party environment. Since implementation of these requirements is at least
       1.5 years away, CMS should continue to assist States in seeking immediate remedies to
       get their claims processed. The types of roles CMS might play in this regard could be
       fact finder, technical advisor, or coordinator.

       Education. Develop strategies, on a national level, to educate third parties about
       Medicaid and third-party pharmacy issues. In addition, CMS should collaborate with the
       Department of Labor to develop education targeted specifically to self-insured health
       plans regulated under the Employee Retirement Income Security Act (ERISA).

       Legislation. Determine whether legislation is needed to:

       C        explicitly include pharmacy benefit management companies in the Medicaid
                program’s definition of a third party,
       C        require third parties to match their eligibility files with Medicaid’s eligibility
                files, and
       C        allow Medicaid up to 3 years to recover payments from liable third parties.

       If legislation is determined to be needed, CMS should consider coordinating with the
       Department of Labor to discuss requiring similar items from ERISA-governed health
       plans.


AGENCY COMMENTS

       The CMS concurred with our recommendations and stated they are committed to
       resolving issues that stand in the way of full recovery of Federal and State dollars. They
       plan to re-examine States’ cost avoidance waivers and will emphasize cost avoidance at
       the August 2001 National Third Party Liability Conference. In addition, they have
       worked with States and third parties to develop a claim format that Medicaid agencies
       can use for submitting electronic claims to third parties; they are helping to educate
       PBM’s clients about Medicaid reimbursement issues; and they will review issues to
       determine if legislation is needed. While concurring with the premise of our
       recommendation to require tracking of dollar amounts paid and chased and dollar
       amounts recovered on pharmacy claims, CMS stated that tracking all pharmacy claims
       may not be the only method to substantiate cost-effectiveness of a waiver. We recognize
       that this data may not be the sole factor in determining the cost-effectiveness of a waiver.
       However, we still believe that upon receiving a waiver, a State should be required to
       track this information.

 Medicaid Recovery of Pharmacy Payments           iii                                      OEI-03-00-00030
                           TABLE OF CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


        Medicaid dollars at risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


        Cost avoidance prevents dollars from being at risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


        Third party non-payment of Medicaid claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


        Problems with pharmacy benefit management companies . . . . . . . . . . . . . . . . . . . . . . . 10


        Some successful methods of payment recovery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


        State recommendations for solving payment recovery problems . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


        A. Technical Terms Used in This Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


        B. 1999 Medicaid Pharmacy Data for 50 States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


        C. Medicaid Pharmacy Dollars at Risk for 32 States . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


        D. Centers for Medicare and Medicaid Services’ Comments . . . . . . . . . . . . . . . . . . . . 21





  Medicaid Recovery of Pharmacy Payments                         iv                                                    OEI-03-00-00030
                                INTRODUCTION


PURPOSE

       This report (1) quantifies the Medicaid dollars at risk of being lost when Medicaid pays
       pharmacy claims for beneficiaries who have other insurance, and (2) describes States’
       experiences with third-party payment of claims.


BACKGROUND

Medicaid Expenditures for Pharmacy Claims

       Medicaid is a program, created under Title XIX of the Social Security Act, that pays for
       medical and health-related assistance for certain vulnerable and needy individuals and
       families. It is administered by States but financed with State and Federal funds. The
       Federal Government provides 50 to 83 percent of the funding depending on the State’s
       per capita income.

       The annual Federal-State Medicaid expenditure for pharmacy claims is in the billions of
       dollars. In 1997 it was $11.9 billion, and in 1999 it was $16.4 billion. In 1999, over 32
       million beneficiaries were served under the pharmacy benefit.

Medicaid Beneficiaries with Other Insurance

       Millions of Medicaid beneficiaries have other health insurance. Pharmacy coverage may
       be through private health insurance, employment-related health insurance, medical
       support from non-custodial parents, automobile insurance, State programs such as
       workers’ compensation, or Federal programs such as Medicare. In accordance with
       Federal regulations, Medicaid beneficiaries “assign to the Medicaid agency their rights to
       medical support and to payment for medical care from any third party. [However,] the
       assignment of rights ... is effective only for services that are reimbursed by Medicaid
       (42CFR433.145).” In other words, if Medicaid paid for a service that is covered by
       another source of insurance, Medicaid has a legal right to payment from that source.

       Most other insurance sources are considered primary payers in relation to Medicaid and
       may, therefore, be financially liable for claims. Medicaid is a payer of last resort with a
       few exceptions which are noted in the State Medicaid Manual, Section 3904.4A-B.
       Medicaid refers to other insurers as third parties and refers to claims for beneficiaries
       who have other insurance as third party claims. These and other technical terms are
       defined in Appendix A.




 Medicaid Recovery of Pharmacy Payments          i                                      OEI-03-00-00030
Cost Avoidance

       The term cost avoidance is used to describe Medicaid’s avoidance of paying claims when
       beneficiaries have other insurance. Under cost avoidance, if a State Medicaid agency
       receives a claim, the agency must deny the claim and return it to the provider. The
       provider can then bill the third party for payment. Medicaid agencies also avoid paying
       claims by preventing them from being billed to them in the first place. Instead, the
       agencies alert pharmacies about the existence of the liable third party through their
       computer systems at the time of purchase.

       In order for Medicaid agencies to use cost avoidance effectively, they must take
       reasonable measures to determine the legal liability of third parties. At a minimum, the
       agencies must collect insurance information from prospective Medicaid beneficiaries
       during the initial eligibility interview and the redetermination process. State Medicaid
       agencies must also conduct data exchanges with Social Security Administration wage
       and earnings files; and the files of State agencies that keep information on wages, child
       support, welfare, motor vehicle accidents, and workers’ compensation. Any of these files
       might indicate the existence of other health insurance.

       Medicaid agencies are required to notify the Centers for Medicare and Medicaid Services
       (CMS) of the total amount they avoided paying for all services for beneficiaries who
       have other insurance. This notification is part of the State’s quarterly report of
       expenditures for their Medicaid program. The notification does not, however, distinguish
       the amount avoided for pharmacy services from the total amount avoided for all services.

Waivers to Pay and Chase Pharmacy Claims

       The CMS grants cost-avoidance waivers for various services including pharmacy.
       Medicaid agencies with a cost-avoidance waiver for pharmacy services may reimburse
       pharmacies that serve beneficiaries who have other insurance. After paying the
       pharmacy, the agency seeks payment recovery from the third party. This process is
       known as pay and chase. Federal waivers from cost avoidance are granted if the State
       Medicaid agency can demonstrate that paying and chasing is cost effective.

       There are circumstances under which Medicaid agencies pay and chase even when they
       do not have a waiver. Federal law requires States to pay and chase claims when (1)
       coverage is through a parent whose obligation to pay support is enforced by the State’s
       child support enforcement agency, (2) the service is prenatal care for pregnant women,
       and (3) the service is preventive pediatric care. In addition, if a State learns of the
       existence of third-party insurance after the claim has been paid, the State will chase for
       payment recovery.

       When States submit their quarterly report of Medicaid expenditures to CMS, they include
       the total amount they recovered from pay and chase activity. The States are not required
       to notify CMS of the total amount they attempted to recover. Nor are the States required
       to report the amounts recovered on pharmacy services alone.

 Medicaid Recovery of Pharmacy Payments         2                                      OEI-03-00-00030
Pharmacy Benefit Management Companies

       Payers of insurance benefits either process claims in-house or contract the processing to
       another entity. In the case of pharmacy benefits, many payers have contracts with
       pharmacy benefit management companies (PBMs). These companies provide numerous
       client-tailored services for health plans. The PBMs may be responsible for the entire
       management of the health plan’s pharmacy benefit, or they may provide one or more of
       the following services: process pharmacy claims, provide mail-order prescription
       services, maintain pharmacy networks, conduct drug utilization reviews, and develop
       drug formularies. Organizations that contract with these companies include, but are not
       limited to, insurers, employers, and managed care organizations.

       It has been estimated that PBMs handle 70 percent of all prescription orders dispensed
       for ambulatory care, and that 10 PBMs account for the bulk of covered individuals. What
       this means for Medicaid is that many payments made on pharmacy claims have to be
       recovered from PBMs. For the purposes of this report we include PBMs in the term third
       party.

Problems Recovering Pharmacy Payments from Third Parties

       In 1996, the Pharmacy Claims Reimbursement Team, made up of CMS and State
       Medicaid agency representatives, collaborated on a study called “Medicaid Encounters
       Barriers to Recovering Payment for Pharmacy Claims from Third Parties.” The study
       found that “58 percent of the States recover less than 40 percent of the money they
       pursue...” and that a small number of PBMs and TRICARE (health plan for military
       personnel) stood out as creating the greatest obstacles for payment recovery. One PBM
       in particular was far and above the most uncooperative entity among third parties. The
       PBMs were not processing Medicaid claims and were not willing to identify the insurers
       and employers with whom they contract.

Efforts to Overcome Payment-Recovery Barriers

       The Pharmacy Claims Reimbursement Team has been steadily gathering facts and
       working toward overcoming payment-recovery barriers. One effort of the team has been
       to identify third parties that contract with the PBM named in their 1996 study as the most
       uncooperative. Another major step was building a partnership between CMS and States
       so that information could be shared. A network of State pharmacy representatives was
       developed and information can now be disseminated to all States.

       The team has also been laboring to understand claim formatting problems which prevent
       the recovery of some pharmacy payments. To this end they have worked with a major
       PBM, the National Council for Prescription Drug Programs, and with Medicaid
       claims-processing contractors to find solutions. They are currently trying to help all
       States move to a commonly-used electronic format for their pharmacy claims.




 Medicaid Recovery of Pharmacy Payments        3                                     OEI-03-00-00030
Request for Assistance

       Our inspection was requested by CMS staff. We were asked for assistance in resolving
       problems identified in the Pharmacy Claims Reimbursement Team’s 1996 study. A
       particular concern was that PBMs would not disclose information about third parties that
       might be liable for Medicaid claims.


METHODOLOGY

       We collected information from CMS, Medicaid agencies, insurers, and employers from
       December 1999 through March 2001.

CMS Data

       We gathered information from CMS’s Central Office concerning the Pharmacy Claims
       Reimbursement Team’s 1996 study, and we received periodic updates regarding the
       team’s continuing work.

State Medicaid Agency Data

       We gathered information from representatives of Medicaid agencies in 49 States and the
       District of Columbia. These representatives had expertise in pharmacy, third-party
       liability, and operational issues. Data was not collected from the State of Tennessee
       because their representative informed us their entire Medicaid population is in managed
       care. In Tennessee, the State’s managed care contractors are responsible for determining
       third-party liability and for recovering payments. For the sake of brevity, we use the
       word "State" as a synonym for “State Medicaid agency” and "State Medicaid agency
       representative" throughout the findings section of this report. We refer to the District of
       Columbia as a State for the same reason.

       We collected a variety of data regarding outpatient pharmacy claims. The data we
       requested included total expenditures for pharmacy benefits; and total number of
       beneficiaries with third-party insurance, and the percentage of these beneficiaries with
       pharmacy coverage. The data on pharmacy claims with third-party liability included
       total dollars avoided; total dollars paid and chased; and total dollars recovered from pay
       and chase activity. We also requested information about agencies’ policies and
       procedures, and their experiences with third parties.

       While we collected data for calendar years 1998, 1999, and first quarter of 2000, the
       findings in this report are based on 1999 data. Some States did not have figures available
       for some of the items and time periods we asked about. Because 1999 was the most
       recent full year prior to our study, and because States had more data for 1999 than for
       1998 or 2000, our findings are for 1999 unless we specify otherwise.




 Medicaid Recovery of Pharmacy Payments         4                                      OEI-03-00-00030
       The financial data States provided had caveats. First, pharmacy payment amounts were
       not always limited to outpatient prescription drugs, or for the calendar year, as we
       requested. Some States provided data that included inpatient drugs, syringes, diabetes
       test strips, over-the-counter drugs, or small amounts of other health services. Some
       States provided fiscal year instead of calendar year data, and some provided estimated
       instead of actual figures. Finally, States said that the claims they paid and chased could
       have included claims that were not the liability of third parties if a Medicaid beneficiary’s
       coverage changed, or if the third party’s health plan did not cover a particular service.
       See Appendix B for the 1999 pharmacy data provided by each State.

Insurer and Employer Data

       We requested information from a purposive sample of 170 insurers and 114 employers
       about their policies and practices regarding reimbursement of Medicaid pharmacy claims.
       The insurers included 149 members of the Health Insurance Association of America who
       were listed on the Internet and 21 insurers identified by CMS. The 114 employers were
       identified by CMS and States.

       We received information, anonymously, from 41 insurers and 47 employers who
       provided pharmacy benefits. Forty-four of the 47 employers were partially or fully self-
       insured (i.e., employers who bear some of the risk for their employees’ health claims). In
       this report, we use the term self-insured plans to describe private employer health plans
       which are regulated by the U.S. Department of Labor under the Employee Retirement
       Income Security Act.
                                           ____________

       This study was conducted in accordance with the Quality Standards for Inspections
       issued by the President’s Council on Integrity and Efficiency.




 Medicaid Recovery of Pharmacy Payments          5                                     OEI-03-00-00030
                                          FINDINGS

Thirty-two States are at risk of losing over 80 percent
($367 million) of the Medicaid pharmacy payments they tried
to recover from third parties through the pay-and-chase
approach
       Thirty-two States were able to provide data quantifying the dollars at risk. These 32
       States identified $440 million in potential recoveries from third parties in 1999, of which
       they recovered $73 million (17 percent). The total pharmacy expenditures for these 32
       States was over $12 billion.

       The 32 individual States paid and chased amounts ranging from $1,000 to $70 million.
       See Appendix C for dollars at risk in each of these 32 States. While the percentage of
       dollars at risk for these States ranged from 0 to 99 percent, only 5 States recovered more
       than half of the outstanding amounts.

       The other 18 States reported that they could not identify the amount they paid and chased
       for pharmacy claims. Thirteen of the 18 States could not identify the amount they
       recovered for pharmacy claims. The most common reason why the States could not
       provide financial data was that their systems do not isolate pharmacy claims from claims
       for other services. The total pharmacy expenditures for these 18 States was $4.2 billion
       in 1999.

Regardless of whether a State used mainly cost avoidance or pay and chase, the
overall recovery rate for pay and chase was low

       In 1999, 35 States used the pay-and-chase method for the majority of their pharmacy
       claims, and 15 States used the cost-avoidance method for the majority of their pharmacy
       claims. However, of the 32 States that were able to quantify dollars at risk, 24 used pay
       and chase and 8 used cost avoidance. As shown in Table 1 on the next page, regardless
       of which of these two methods States used for the majority of their claims, when they
       paid and chased, the overall recoveries from third parties were less than 20 percent.
       Whether a State pays and chases a large or small amount of claims, the results are the
       same—a significant percentage of dollars are at risk of not being recovered from third
       parties.




 Medicaid Recovery of Pharmacy Payments         6                                      OEI-03-00-00030
                              Table 1. PERCENTAGE OF DOLLARS AT RISK
                             BY MAIN CLAIMS PROCESSING METHOD - 1999
               State’s Method for          Number of
                 Processing the            States that                                      Percentage
                  Majority of               Provided     Amount Paid         Amount         of Dollars
               Pharmacy Claims                Data        and Chased        Recovered        At Risk

                  Pay and Chase                24        $404,286,020.39   $67,840,490.81      83%

                Cost Avoidance                  8*        $35,870,979.91    $5,333,374.97      85%

                     Totals                 32          $440,157,000.30 $73,173,865.78        83%
            * One of these States only cost avoided claims that were over $50
            Source: State Medicaid agency data provided to OIG

Three States paid and chased the majority of pharmacy claims without a waiver

        Three States paid and chased the majority of their claims without a cost-avoidance
        waiver. Two of the three States provided data on both the amounts they paid and chased
        and recovered. One of these States paid and chased $21 million and recovered $2.2
        million (11 percent). The other State paid and chased $800,000 and recovered $60,000
        (7 percent). The State which could not provide pay and chase and recovery amounts had
        the second highest total pharmacy expenditures among States ($1.8 billion).


However, the cost-avoidance approach prevented $185
million from being at risk in 17 States
        Seventeen States were able to provide financial cost-avoidance data for pharmacy claims.
        These States avoided paying $185 million in 1999. The data comes from both the States
        that avoid payment and those that pay and chase the majority of their third party claims.
        However, only 9 of 15 States that avoided the majority of their claims could provide us
        with data. These nine States reported avoiding $80 million.

        The premise of cost avoidance is that it prevents the payment of claims that are the
        liability of third parties. Many of the claim dollars that are avoided cannot be tracked by
        States because the responsible third party has been billed first instead of Medicaid.
        Therefore, the total actual amount avoided is greater than the amount States are able to
        track.

States that use cost avoidance say it is successful once a system is in place

        States that use cost avoidance believe that doing so is not difficult once a system is in
        place. But they said two things are key to making cost avoidance successful: (1) working
        with pharmacies or pharmacy associations prior to implementing the cost-avoidance
        system, and (2) maintaining accurate information on beneficiaries’ third-party coverage.
        They also said States should implement a system override that allows pharmacies to bill
        Medicaid when there is a discrepancy in a beneficiary’s coverage. Six States cited cost


  Medicaid Recovery of Pharmacy Payments                 7                                       OEI-03-00-00030
        avoidance as the most successful way to circumvent problems associated with paying and
        chasing. One State called it a “silver bullet.”

States that do not use cost avoidance have concerns about it burdening
pharmacies and beneficiaries

        Nineteen States that pay and chase a majority or all of their pharmacy claims believe cost
        avoidance places a financial burden on pharmacies. For example, States reported that
        some pharmacies have billing systems which prohibit them from billing two payers at the
        same time (i.e., billing the third party for the claim and Medicaid for the copayment).
        States also said (1) some third parties pay the policyholder and not the pharmacy; and (2)
        if coverage information is not accurate the claim could be denied by both Medicaid and
        the third party, which leaves the pharmacy without reimbursement.

        Eight States that pay and chase all of their pharmacy claims also said cost avoidance can
        negatively impact beneficiary access. They are concerned that pharmacies that are
        unable to bill two payers at the same time may refuse to serve Medicaid beneficiaries
        who have third-party insurance. Other State concerns are for beneficiaries in nursing
        homes who cannot use the third party’s network pharmacy as required by the health plan,
        and for beneficiaries who cannot afford the copayment required by mail order programs
        that many health plans use.

        Despite these concerns, when we collected our data 12 States reported they were
        switching to cost avoidance, or were considering switching in the future because of all
        the problems associated with paying and chasing.


Almost three-quarters of States report that third parties
refuse to process or pay Medicaid claims

        Thirty-six States said that when they try to recover payments, they are faced with the
        following problems: denials due to incompatible claim formats, unreasonable filing time
        limits, unprocessed claims with no explanation, vague claim denials, and the inability to
        identify the liable payer or claims processing entity.

Incompatible claim formats often lead to the denial of Medicaid claims

        Twenty-nine States indicated that the lack of universal formatting and data elements on
        pharmacy claims leads to the denial of Medicaid claims. States said they usually do not
        have various pieces of information that are required by some third parties. For example,
        they may not have diagnosis codes, patient’s signature, patient’s relationship to the
        policyholder, or physician’s Drug Enforcement Agency number. Third parties have
        different requirements which makes it even harder for States to submit “correctly”
        formatted claims. Data that we collected from insurers and employers indicates that
        Medicaid claims do not include all the information required by third parties.


  Medicaid Recovery of Pharmacy Payments        8                                     OEI-03-00-00030
        States reported that when their claims are denied for missing data they add the missing
        data if they have it and resubmit the claim. However, the constant reworking and
        resubmission of claims puts an added administrative and financial burden on States. We
        were told one PBM does not point out all the data elements missing from a claim the first
        time they deny it. After each resubmission the PBM may point out another missing data
        element from the same claim. States said this same PBM will also deny claims if the data
        elements are in the wrong sequence. Another State said PBMs were reimbursing their
        claims at a lower rate as a penalty for being in the wrong format.

Unreasonable filing time limits make it difficult for States to recover payments

        Sixteen States said unreasonable filing time limits are a problem because if they submit
        claims past the third party’s filing time limit the claims are automatically denied. States
        reported that common time limits are 30 to 90 days and the shortest was 7 days. States
        said they have a hard time meeting time limits when they pay and chase because their
        pharmacies may have 1 year or longer to submit claims. Therefore, by the time the State
        receives the pharmacy’s claim, pays it, and tries to recover payment from the third party,
        the third party’s filing time limit may have passed.

Unprocessed claims and vague denials keep Medicaid from recovering payments

        Twelve States said their claims were not processed or were returned with vague denial
        codes from third parties. Some States reported getting back claims with no explanation
        as to why they were not processed. Other unprocessed claims are never returned and
        there is also no explanation. States also said that some third parties will only process
        claims that are submitted by a provider or a policyholder. While some States speculate
        that third parties may not understand Medicaid’s pay and chase activity, or that Medicaid
        is the payer of last resort, 93 percent of the employers and insurers that provided us with
        data said they know that Medicaid is the payer of last resort.

        States reported that when a claim denial code is vague or represents several possible
        reasons for the denial, the State cannot determine what information needs to be corrected
        in order to resubmit the claims. This has the effect of terminating the State’s attempt to
        recover payments. One of these States reported receiving a batch of 21,000 claims from
        a PBM with such a denial code.

Inability to identify liable payers and claims processing entities makes recovery
of payments almost impossible

        Twelve States said that if liable payers and their claims processors are not identified
        correctly, States risk sending claims to the wrong entity and not recovering payments.
        Despite efforts to identify beneficiaries’ other insurance, States said that information in
        their third-party files can be incomplete or erroneous. This is because the State may not
        receive complete and accurate information about the beneficiary’s other coverage; the
        State may not be notified of coverage changes; or the beneficiary may have more than




  Medicaid Recovery of Pharmacy Payments         9                                      OEI-03-00-00030
       one other insurer and the State may not know which one is primary and which is
       secondary.

       States also have difficulty identifying the liable payer’s claims processing entity. This is
       often due to insurers changing claims processors without notifying the State. In addition,
       States are sometimes given the name of an entity without the address. This is a problem
       because some entities have similar names and some have multiple billing addresses.
       Identifying the correct claims processor can be a problem for payers as well. One
       employer reported having multiple medical plan carriers. This employer said Medicaid
       claims do not identify the carrier and therefore the employer does not know which carrier
       is responsible for the claims.


More States had problems with pharmacy benefit
management companies than with all other types of third
parties combined
       Thirty-two States experienced problems with pharmacy benefit management companies.
       As shown in Table 2 below, more States had problems with these companies than with all
       other types of third parties combined. In addition to having all the same problems with
       PBMs that they have with other third parties, 14 States said some PBMs will not process
       Medicaid claims because the PBMs’ clients have not authorized them to do so.
       Furthermore, States reported that these companies have not been willing to identify the
       names and addresses of the liable payers. This is a serious problem for Medicaid given
       the volume of pharmacy claims processed by pharmacy benefit management companies.
       When PBMs do not process Medicaid claims and will not identify the liable payer, States
       cannot recover their payments.

                          Table 2. COMPARISON OF “PROBLEM” THIRD PARTIES
                       Type of Third Party              Number of States that Experienced Problems

                               PBM                                            32

                          Insurer/Carrier                                     13

                       TRICARE Standard*                                       6

                         Self-insured plan                                     4

                         Point-of-sale plan                                    1

                             Medicare                                          1
           *The fee-for-service health care program for active duty and retired members of the uniformed
            services, their families, and survivors (formerly called CHAMPUS).
           Source: State Medicaid agency data provided to OIG




 Medicaid Recovery of Pharmacy Payments              10                                           OEI-03-00-00030
        The data we collected from insurers and employers indicates that 15 percent of those who
        contract with a pharmacy benefit management company had not given them authorization
        to process Medicaid claims. We have also learned that a list provided to CMS of over
        600 organizations that contract with one of the largest PBMs indicated that 75 percent of
        these organizations do not authorize the PBM to process Medicaid claims.

        Twenty-six States mentioned one particular pharmacy benefit management company as a
        problem. Two States said the company has not paid them for years. One of these States
        said they stopped sending claims to this pharmacy benefit management company because
        “they just ignored them.” Another State said they had “talked with [the PBM’s]
        attorneys and gotten a complete run around.” The same State reported losing “tens of
        millions” of dollars because of this company. This company had also been identified as
        the biggest problem for States in the 1996 study by CMS and State Medicaid agencies.


While States have difficulty recovering payments, methods
such as sharing information with third parties, using
effective billing practices, and taking legal action have been
successful for some States
        While 33 States reported that less than half their efforts to recover payments from third
        parties were successful, some States mentioned recovery methods that have been
        successful. These methods include sharing information with third parties, using effective
        billing practices, and taking legal action.

Sharing information with third parties

        Working with third parties can be a successful method for recovering payments
        according to 31 States. Some States said communication with third parties helps them
        keep beneficiary coverage information complete and accurate. This is done through a
        verification process or the matching of eligibility files. Under the verification process,
        States phone or write to the carrier to verify coverage information. The matching of
        eligibility files, on the other hand, can be done via tape sharing, database sharing, or
        on-line matching. Thirty-eight States said they match files with some insurers, 13 match
        with some self-insured plans, and 11 match with certain PBMs. Of the 88 insurers and
        employers that sent us data, 56 said they did not match their eligibility files with
        Medicaid files. Of those 56 respondents, 70 percent said they did not match files because
        Medicaid had not asked them to do so.

        Information sharing with third parties has advantages beyond updating beneficiary
        coverage. For example, one State said an insurance carrier notifies them when they
        change PBMs so that the State can submit claims to the right PBM. Another State said a
        PBM provided a list of group insurance plans which the States could bill directly. Open
        communication also makes follow-up regarding claim issues easier for States.



  Medicaid Recovery of Pharmacy Payments        11                                    OEI-03-00-00030
        Information does not always have to come from the third party—it can also come from
        providers. In one State, when a pharmacy learns that Medicaid beneficiaries have other
        insurance they note the third-party information on a card and mail it to the State. The
        State then uses this information to update their third-party database.

Using effective billing practices

        Eleven States regard electronic billing as an effective way to recover payments. They
        said that once claim format and system compatibility issues are resolved, this is more
        efficient than paper claims. However, other States have been successful submitting paper
        claims that have been formatted to meet the requirements of third parties.

        Five States said billing the insurance carrier directly (i.e., bypassing the PBM) or using
        the automated group capture system were helpful in recovering payments. Under the
        automated group capture system, when a State discovers that an insurer uses a particular
        PBM in the case of one beneficiary, they automatically send claims for all beneficiaries
        covered by that insurer to that company.

Taking legal action

        Three States spoke about legal steps they have taken to recover pharmacy payments from
        liable third parties. One State described reaching a settlement in which a sample of
        Medicaid claims was adjudicated and the result was projected to the universe of claims.
        This same State also told employers who were not paying Medicaid claims that the State
        would put a lien on their properties. A second State uses internal legal counsel to draw
        up contracts to obtain eligibility files of third parties. The contracts protect the
        confidentiality of the information. This State has also expanded State law to include
        PBMs in the definition of third parties that must match eligibility files with the State. If
        third parties refuse to match files they are subject to penalties. A third State said their
        State Attorney General got involved when a PBM was not responding to claims. The
        problem was resolved when the PBM was taken out of the loop. That State now sends
        Medicaid claims directly to the insurance carrier for processing.


State recommendations for solving recovery problems
include universal claim formats, eligibility data matches, and
new rules for PBMs and insurers
Universal claim formats and timely filing limits

        Twenty-five States said standardizing claim format and data elements for pharmacy
        claims is a solution to the problem of incompatible claim formats. Some States suggested
        that a universal claim format be mandated. Other States believe that the Health Insurance
        Portability and Accountability Act (Public Law 104-191), which requires a single




  Medicaid Recovery of Pharmacy Payments         12                                     OEI-03-00-00030
         standardized format for all electronic claims, will solve the problem of incompatible
        claim formats. The compliance date for the requirement is October 2002 (2003 for small
        health plans). One State expressed the concern that the law may not result in a mandated
        claim format that allows for third-party coordination of benefits.

        Nine States suggested changes to the filing time limits. The suggestions include
        (1) establishing a universal filing time limit for all claims processing entities, (2) waiving
        or lengthening filing time limits for Medicaid and, (3) requiring third parties to respond
        to Medicaid claims within an established time frame.

Eligibility data matches

        Nine States believe third parties should be required to match their eligibility data with
        Medicaid eligibility data so that Medicaid could have reliable coverage information.
        This would reduce the number of invalid claims going to third parties and make cost
        avoidance and pay and chase systems more effective.

New rules for pharmacy benefit management companies and insurers

        Several States said they believe PBMs must be included in the definition of third-party
        payer in any legislation or regulation affecting third-party payers. This would alleviate
        difficulties States face in getting these companies to process and pay Medicaid claims.
        Other legislative recommendations were to (1) require all insurers, including self-insured
        employers, to authorize the processing of Medicaid claims, or (2) exempt Medicaid
        claims from authorization requirements.

        States also expressed the opinion that third parties should be required to pay Medicaid
        claims unless the claims are validly denied, making clear to payers and claims processors
        the factors that constitute a valid denial. This would address two problems: (1) the
        problem of third parties not processing Medicaid claims and not providing an
        explanation, and (2) the problem of vague denial codes.




  Medicaid Recovery of Pharmacy Payments          13                                      OEI-03-00-00030
                         RECOMMENDATIONS

To reduce the dollars at risk of being lost, we offer the following
recommendations for CMS:

        Waiver. Review States’ cost-avoidance waivers for pharmacy claims to determine if
        they are meeting the cost-effectiveness criterion. Our findings indicate that, overall, pay
        and chase is not a cost-effective policy. The CMS should also review State policies to
        determine if some States are paying and chasing pharmacy claims without a waiver.

        Best Practices. Continue working together with States to identify, develop, and
        disseminate the most successful methods in both avoiding and recovering Medicaid
        pharmacy payments that are the responsibility of liable third parties.

        Tracking. Require States to track the dollar amounts they pay and chase and the
        amounts they recover on pharmacy claims if they have cost-avoidance waivers. This
        information is necessary to determine whether a State’s paying and chasing is cost
        effective. Furthermore, unless States know how much money third parties owe, they
        cannot use their collection resources to the best advantage.

        Claim format. Clarify for States whether claim standardization requirements under the
        Health Insurance Portability and Accountability Act will be applied to pharmacy services
        in a third party environment. Since implementation of these requirements is at least
        1.5 years away, CMS should continue to assist States in seeking immediate remedies to
        get their claims processed. The types of roles CMS might play in this regard could be
        fact finder, technical advisor, or coordinator.

        Education. Develop strategies, on a national level, to educate third parties about
        Medicaid and third-party pharmacy issues. In addition, CMS should collaborate with the
        Department of Labor to develop education targeted specifically to self-insured health
        plans regulated under the Employee Retirement Income Security Act (ERISA).

        Legislation. Determine whether legislation is needed to:

        C        explicitly include pharmacy benefit management companies in the Medicaid
                 program’s definition of a third party,
        C        require third parties to match their eligibility files with Medicaid’s eligibility
                 files, and
        C        allow Medicaid up to 3 years to recover payments from liable third parties.

        If legislation is determined to be needed, CMS should consider coordinating with the
        Department of Labor to discuss requiring similar items from ERISA-governed health
        plans.




  Medicaid Recovery of Pharmacy Payments           14                                       OEI-03-00-00030
AGENCY COMMENTS

       The CMS concurred with our recommendations and stated they are committed to an
       aggressive strategy in resolving the issues and removing the barriers that stand in the way
       of full recovery of Federal and State dollars. They stated that they are planning to
       re-examine States’ cost-avoidance waivers, and that cost avoidance will be emphasized at
       the August 2001 National Third Party Liability Conference. In addition, they have
       worked with States, third parties, and the National Council for Prescription Drug
       Programs to develop a claim format that could be used by Medicaid agencies for
       submitting electronic claims to third parties; and they will advise States of progress made
       by the National Council for Prescription Drug Programs regarding claim standardization
       under the Health Insurance Portability and Accountability Act. The CMS further stated
       they are continuing to help educate PBM’s clients about Medicaid reimbursement issues,
       and have invited the U.S. Department of Labor to attend the August 2001 National Third
       Party Liability Conference.

       The CMS concurred with the premise of our recommendation to require States with cost-
       avoidance waivers to track the dollar amounts they pay and chase and the amounts they
       recover on pharmacy claims. The CMS stated that setting up a system to track all
       pharmacy claims may not be the only method to substantiate the cost-effectiveness of a
       waiver. We recognize that this data may not be the sole factor in determining the cost-
       effectiveness of a waiver. However, we still believe that upon receiving a waiver, a State
       should be required to track this information.

       Regarding the need for legislation in the area of third-party liability, CMS will continue
       to review the issues to determine what, if any, legislation is needed. The complete text of
       CMS’s comments are in Appendix D.




 Medicaid Recovery of Pharmacy Payments        15                                     OEI-03-00-00030
                                                                      APPENDIX                A


                      Technical Terms Used in This Report
Below is an alphabetical list of some of the technical terms used in this report.

Cost avoidance: Method for processing claims for Medicaid beneficiaries who have other
insurance. When Medicaid receives a claim from a provider, the claim is denied and the
provider is informed that the beneficiary has another insurer who is financially liable for the
claim. Cost avoidance also occurs when the provider knows of the Medicaid beneficiary’s other
insurer and sends the claims directly to that other entity and not to Medicaid.

Cost-avoidance waiver: When a Medicaid agency has been granted a cost-avoidance waiver
it means that the requirement to use cost avoidance is waived, and the agency may pay for the
claims and recover the payments from the liable insurers. Waivers are granted if the State can
show that another method of processing claims is as, or more, cost-effective than cost avoidance.

Pay and chase: A method for processing claims wherein Medicaid pays the claims for a
beneficiary who has other insurance and then, later, tries to recover the payments from the liable
party.

Pharmacy benefit management company (PBM): Companies that manage prescription
drug coverage for insurance carriers, self-insured employers, managed care organizations, and
other entities. Services provided by PBMs include claims processing, pharmacy network
development, drug utilization review, and formulary development.

Point-of-sale plan: An insurance plan which has a special electronic claims processing
arrangement with pharmacies. The arrangement allows pharmacists to determine on-line, while
a customer is waiting, whether the customer’s insurance plan will pay for the prescription.

Self-insured plan: Many employer insurance plans are self-insured, i.e., the employer bears a
portion of the risk for employees’ medical claims. While health insurance plans are usually
regulated by State Governments, self-insured plans are regulated by the U.S. Department of
Labor under the Employee Retirement Income Security Act.

Third party: Any individual, entity, or program that is, or may be, liable to pay all or part of
the medical cost for any medical benefit provided to a beneficiary. Third parties include private
insurance plans or carriers, employer insurance plans, State insurance plans such as workers’
compensation programs, and Federal insurance programs such as Medicare. In this report the
term third party also refers to PBMs.

Third-party liability: A third party’s financial responsibility for medical services provided to
a Medicaid beneficiary.



  Medicaid Recovery of Pharmacy Payments         16                                    OEI-03-00-00030
                                                                       APPENDIX B


                1999 Medicaid Pharmacy Data for 50 States
States that pay and chase send claims to third parties they believe are responsible for the claims.
However, due to Medicaid beneficiaries’ changing coverage, or health plans not covering certain
services, third parties may deny some of the claims. Therefore, the amount paid and chased for
third-party pharmacy claims in the table below includes claims that could be denied for valid
reasons.

                                          Amount Paid and Chased for Amount Recovered from
  State    Total Pharmacy Expenditures Third-party Pharmacy Claims       Third Parties
   AK                    $45,881,080.83                 $5,183,492.88          $817,471.04
                                        d                             cd                  cd
   AL                  $314,946,162.00                  $5,018,902.00       $1,742,770.00
                                        d                             d                    d
   AR                  $202,913,489.62                    $811,127.00           $60,411.00
   AZ                     $1,812,951.68                     unavailable            $141.72
   CA                 $1,825,318,419.00                     unavailable          unavailable
   CO                  $125,412,087.00                      unavailable          unavailable
                                        c
   CT                   $220,673,450.00                     unavailable          unavailable
                                        c
   DC                    $43,419,240.00                     unavailable          unavailable
   DE                    $56,065,026.00                     unavailable        $840,089.46
                                                                       b                   b
   FL                 $1,164,493,522.00                $28,452,000.00        $3,625,500.00
                                        c                             bc                  bc
   GA                   $439,419,153.00               $21,091,378.38        $2,277,868.87
   HI                    $52,477,014.00                     $1,208.00            $1,208.00
   IA                  $179,987,630.03                  $3,221,655.16        $1,929,713.16
   ID                    $72,370,224.00                     unavailable          unavailable
                                        d                              d                   d
   IL                  $718,299,628.00                 $70,512,870.00        $9,336,728.00
   IN                  $407,752,363.00                 $27,170,728.00        $2,608,454.00
   KS                  $152,053,655.00                  $2,937,187.00          $885,738.00
                                        d                             d                    d
   KY                  $384,078,336.00                 $23,899,069.00        $2,143,461.00
   LA                  $430,423,799.00                 $33,615,322.00        $2,278,064.00
                                        c                             ce                   c
   MA                   $600,192,000.00               $13,272,730.00         $1,821,495.00
                                        b
   MD                  $180,000,000.00                      unavailable          unavailable
                                        c                              c                  bc
   ME                  $136,637,381.57                  $5,090,000.00       $2,100,000.00
   MI                  $353,574,000.00                      unavailable          unavailable
   MN                  $215,926,180.34                  $4,940,572.17        $2,258,155.66
                                        c                              c                   c
   MO                   $468,598,424.00                 $9,469,752.00        $1,152,785.00
   MS                  $294,754,745.46                  $4,604,196.00        $1,594,088.00
                                        c                                                 bc
   MT                    $45,500,000.00                     unavailable     $1,400,000.00
   NC                         unavailable              $28,902,407.19        $9,168,690.33


  Medicaid Recovery of Pharmacy Payments        17                                     OEI-03-00-00030
                                                                             APPENDIX B

                                          Amount Paid and Chased for Amount Recovered from
  State    Total Pharmacy Expenditures Third-party Pharmacy Claims       Third Parties
   ND                    $33,931,400.00                     unavailable           unavailable
   NE                   $126,866,802.45                 $9,556,047.28        $3,869,239.38
                                        d                             d                    bd
   NH                    $73,332,966.00                 $4,713,111.00        $2,827,866.00
                                       cd
   NJ                  $499,216,374.00                      unavailable           unavailable
   NM                    $41,233,834.16                     unavailable           unavailable
   NV                    $41,447,640.91                     unavailable           unavailable
                                        c                             b                     b
   NY                 $2,026,870,651.00                $13,680,000.00        $1,280,000.00
                                        d                             d                     d
   OH                   $831,871,859.89                 $3,109,904.11           $59,699.71
                                        d
   OK                   $175,195,447.00                     unavailable           unavailable
   OR                   $119,205,296.00                 $8,176,048.00        $4,206,869.00
                                        c
   PA                   $662,431,412.00                 $9,393,597.00           $59,700.00
   RI                    $79,285,625.88                   $221,595.24          $143,580.29
   SC                  $310,394,000.00                 $12,262,009.50        $4,572,710.30
                                        d
   SD                    $39,934,762.30                     unavailable        $421,062.00
                                        b                             b                   b
   TX                  $900,000,000.00                 $45,000,000.00       $2,800,000.00
                                        c                                                 bcd
   UT                    $89,374,417.00                     unavailable     $2,802,415.26
                                       b                              b                   b
   VA                  $323,272,462.00                 $11,905,623.00       $1,575,372.00
                                                                      b                    b
   VT                    $75,241,758.00                 $1,586,916.39          $645,293.31
                                        d
  WA                   $339,500,000.00                      unavailable           unavailable
   WI                   $298,783,778.00                $23,721,457.00        $4,815,255.00
                                       d                              d                     d
  WV                   $196,538,451.09                  $8,236,095.00          $387,116.00
                                        b                             b                     b
  WY                     $24,298,621.59                   $400,000.00          $128,563.73
      a
   50                $16,441,207,520.80              $440,157,000.30        $78,637,574.22

a. We collected data from 49 States and the District of Columbia. Data was not collected from
  Tennessee because their entire Medicaid population is in managed care.
b. Figure given is an estimate.
c. Figure given is for the fiscal year.
d. Figure given includes data for more than outpatient prescription drugs (e.g., inpatient pharmacy, over-
  the-counter drugs, syringes).
e. Figure given includes $8,652,082 that Massachusetts deemed “unrecoverable.”
Source: State Medicaid agency data provided to OIG




  Medicaid Recovery of Pharmacy Payments            18                                        OEI-03-00-00030
                                                                      APPENDIX C

            Medicaid Pharmacy Dollars at Risk for 32 States
The table below shows the percentage of Medicaid dollars at risk in States that were able to
provide the dollar amounts they paid and chased as well as the dollar amounts they recovered in
1999. The table lists States in descending order by total pharmacy expenditures.

States that pay and chase send claims to third parties they believe are responsible for the claims.
However, due to Medicaid beneficiaries’ changing coverage, or health plans not covering certain
services, third parties may deny some of the claims. Therefore, the amount paid and chased for
third-party pharmacy claims in the table below includes claims that could be denied for valid
reasons.


                                                                                     Percent of
 State      Total Pharmacy Amount Paid and Chased for Amount Recovered               Dollars at
             Expenditures      Third-party Pharmacy Claims from Third Parties          Risk
                             b                               a                 a
  NY       $2,026,870,651.00                 $13,680,000.00     $1,280,000.00                91%
                                                             a                 a
  FL       $1,164,493,522.00                 $28,452,000.00     $3,625,500.00                87%
                             a                               a                 a
  TX         $900,000,000.00                 $45,000,000.00     $2,800,000.00                94%
                             c                               c                 c
  OH         $831,871,859.89                  $3,109,904.11        $59,699.71                98%
                             c                               c                 c
  IL         $718,299,628.00                 $70,512,870.00     $9,336,728.00                87%
                             b
  PA         $662,431,412.00                  $9,393,597.00        $59,700.00                99%
                             b                             bd                  b
  MA         $600,192,000.00                $13,272,730.00      $1,821,495.00                86%
                             b                               b                 b
  MO         $468,598,424.00                  $9,469,752.00     $1,152,785.00                88%
                             b                              ab                ab
  GA         $439,419,153.00                $21,091,378.38      $2,277,868.87                89%
  LA         $430,423,799.00                 $33,615,322.00     $2,278,064.00                93%
  IN         $407,752,363.00                 $27,170,728.00     $2,608,454.00                90%
                             c                               c                 c
  KY         $384,078,336.00                 $23,899,069.00     $2,143,461.00                91%
                             a                               a                 a
  VA         $323,272,462.00                 $11,905,623.00     $1,575,372.00                87%
                             c                              bc                bc
  AL         $314,946,162.00                  $5,018,902.00     $1,742,770.00                65%
  SC         $310,394,000.00                 $12,262,009.50     $4,572,710.30                63%
  WI         $298,783,778.00                 $23,721,457.00     $4,815,255.00                80%
  MS         $294,754,745.46                  $4,604,196.00     $1,594,088.00                65%
  MN         $215,926,180.34                  $4,940,572.17     $2,258,155.66                54%
                             c                               c                 c
  AR         $202,913,489.62                    $811,127.00        $60,411.00                93%
                             c                               c                 c
  WV         $196,538,451.09                  $8,236,095.00       $387,116.00                95%
  IA         $179,987,630.03                  $3,221,655.16     $1,929,713.16                40%
  KS         $152,053,655.00                  $2,937,187.00       $885,738.00                70%
                             b                               b                ab
  ME         $136,637,381.57                  $5,090,000.00     $2,100,000.00                59%
  NE         $126,866,802.45                  $9,556,047.28     $3,869,239.38                60%




  Medicaid Recovery of Pharmacy Payments        19                                     OEI-03-00-00030
                                                                            APPENDIX C

                                                                                            Percent of
 State    Total Pharmacy Amount Paid and Chased for                Amount Recovered         Dollars at
           Expenditures       Third-party Pharmacy Claims          from Third Parties         Risk
  OR        $119,205,296.00                  $8,176,048.00              $4,206,869.00               49%
  RI         $79,285,625.88                    $221,595.24                $143,580.29               35%
                                                           a                           a
  VT         $75,241,758.00                  $1,586,916.39                $645,293.31               59%
                            c                              c                          ac
  NH         $73,332,966.00                  $4,713,111.00              $2,827,866.00               40%
  HI         $52,477,014.00                      $1,208.00                  $1,208.00                0%
  AK         $45,881,080.83                  $5,183,492.88                $817,471.04               84%
                            a                              a                           a
  WY         $24,298,621.59                   $400,000.00                 $128,563.73               68%
  NC             unavailable                $28,902,407.19              $9,168,690.33               68%
  32     $12,257,228,247.75                $440,157,000.30             $73,173,865.78              83%

a. Figure given is an estimate.
b. Figure given is for the fiscal year.
c. Figure given includes data for more than outpatient prescription drugs (e.g., inpatient pharmacy, over-
   the-counter drugs, syringes).
d. Figure given includes $8,652,082 that Massachusetts deemed “unrecoverable.”
Source: State Medicaid agency data provided to OIG




  Medicaid Recovery of Pharmacy Payments            20                                        OEI-03-00-00030
                                              APPENDIX D


  Centers for Medicare and Medicaid Services’ Comments





Medicaid Recovery of Pharmacy Payments   21         OEI-03-00-00030
                                              APPENDIX D




Medicaid Recovery of Pharmacy Payments   22         OEI-03-00-00030
                                              APPENDIX D




Medicaid Recovery of Pharmacy Payments   23         OEI-03-00-00030
                                              APPENDIX D




Medicaid Recovery of Pharmacy Payments   24         OEI-03-00-00030
                                              APPENDIX D




Medicaid Recovery of Pharmacy Payments   25         OEI-03-00-00030
